                                          Office of Inspector General
                                          U.S. Small Business Administration


                                                                                         July 2011 Update



  Business Loan Programs                                              We recommend that the SBA: (1) seek recovery of the
                                                                      loan guaranties, less any recoveries, paid in connection
  Review of Lender Practices in Originating Huntington                with the 10 defaulted loans; (2) flag all Banco Popular
  Learning Center Franchise Loans                                     HLC loans in SBA's Loan Accounting System to ensure
  On July 13, 2011, the OIG issued a report on the results            the identified underwriting deficiencies are considered in
  of an audit of Banco Popular's assessment of borrower               the event of future default; and (3) implement a plan to
  repayment ability when originating Huntington Learning              ensure the completeness and accuracy of data pertaining
  Center (HLC) franchise loans. The audit was conducted               to existing franchise loans and those made in the future.
  in response to a complaint alleging, in part, that lenders
  originated SBA-guaranteed loans made to HLCs based                  Maine Businessman Convicted on False Statements
  on inflated gross revenue projections submitted by loan             On July 11, 2011, the owner of a Kittery, Maine business
  brokers. The objective of the audit was to determine                was convicted in a jury trial in U.S. District Court,
  whether the complainant's lender, Banco Popular,                    District of Maine, on one count of false statements.
  adequately assessed borrower repayment ability when                 The subject had applied for a $1.3 million SBA-
  originating HLC franchise loans.                                    guaranteed loan and submitted an SBA Form 912,
                                                                      Personal History, indicating that he had no prior criminal
  We reviewed all 12 HLC loans approved by Banco                      convictions. In truth, he had four previous convictions
  Popular during fiscal year 2007 using Preferred Lender              on criminal violations. The U.S. Attorney’s Office in
  Program (PLP) procedures and found that it did not                  Portland, Maine referred this case to the OIG in the
  adequately assess repayment ability when approving the              course of a health care fraud investigation in which they
  loans. Specifically, the lender accepted unrealistic                learned that the subject had falsified SBA documents.
  projected annual revenue figures that ranged from
  $483,000 to $650,025 as a basis for demonstrating the               Georgia Learning Center Owner Pleads Guilty
  ability of the HLC franchises to repay their debts. The             On July 12, 2011, in U.S. District Court for the Northern
  lender disregarded relevant and available data, which               District of Georgia, a business owner pled guilty to a
  indicated that the franchises' revenue projections were             Criminal Information, filed on the same date, charging
  unreasonable, which was partly due to the lender's                  her with one count of conspiracy to defraud the United
  perception that franchise loans required a lesser degree of         States. The subject was the owner of an educational
  due diligence. Had the lender complied with SBA' s                  academy in McDonough Georgia. In June 2008, the
  requirements, the 12 loans should have been declined.               academy was sold via a 504 loan package worth
  As of December 2010, there were 10 loans, with an                   $3,175,000. The investigation disclosed that the owner
  aggregated outstanding SBA balance of $2.1 million,                 orchestrated this deal as a “straw” transaction involving
  which had been transferred to liquidation.                          an unindicted co-conspirator. She never intended to
                                                                      relinquish possession of the academy and used the
  During the course of the audit, we also noted that SBA's            proceeds of the loan to continue to operate the business.
  Loan Accounting System did not accurately reflect or                Further, she caused the unindicted co-conspirator to
  track franchise loans guaranteed by the agency, with the            falsely state that the sale would be supported by an equity
  number of loans for these franchises inaccurately                   injection of $296,200 from the borrower when, in fact, no
  reported by an average of 17 percent. This data                     equity would be provided by the borrower. This is a joint
  reliability issue could also negatively impact decisions            investigation with the Federal Bureau of Investigation
  made by lenders for loan approval and prospective                   (FBI).
  borrowers that are considering franchise opportunities, as
  well as the ability of franchisors to attract new investors.



Monthly Update on Activities of the SBA Office of Inspector General
Three Indicted in Texas on Conspiracy and Bank Fraud                  Disaster Loans
Three subjects were indicted on July 19, 2011, in the
Northern District of Texas. Each was charged with one                 Louisiana Contractor Pleads Guilty
count of conspiracy to commit bank fraud and two                      On July 20, 2011, a contractor pled guilty in U.S. District
substantive counts of bank fraud. In addition, one                    Court for the Eastern District of Louisiana to a Bill of
defendant, an attorney, was charged with one count of                 Information charging one count of theft of public funds.
witness tampering. The indictment alleges that the                    The defendant applied to the SBA for a low interest
defendants conspired to deceive a Prosper, Texas, bank                disaster loan to repair his New Orleans rental properties
and another bank in Garland, Texas, by fraudulently                   damaged by Hurricane Katrina. The investigation
inducing them to make loans to one of the co-                         disclosed that he submitted fraudulent documents to the
defendants. The conspiracy involved one SBA-                          SBA in support of repairs to the rental properties.
guaranteed loan to purchase a laundromat and two                      Because of his misrepresentations, he received multiple
commercial loans, totaling over $1.3 million, to purchase             loan disbursements totaling $103,100 from the SBA.
land. Both purchases involved companies affiliated with               This is a joint investigation with the Department of
a co-defendant. The indictment alleges that the                       Housing and Urban Development (HUD) OIG.
defendants misrepresented assets and the source of the
equity injection and down payment funds. The witness                  Texas Property Manager Pleads Guilty to Conspiracy
tampering count alleges that the attorney made several                On July 22, 2011, a property manager pled guilty in U.S.
statements to another defendant to persuade her to lie and            District Court for the Southern District of Texas to one
withhold information if she were to be interviewed by the             count of conspiracy. Previously, on June 29, 2011, he
FBI at a later date. This is a joint investigation with the           and two brothers were each charged in a superseding
FBI.                                                                  indictment with conspiracy and fraud in connection with
                                                                      a major disaster. These charges involve a false invoice
Former Missouri Bank VP Guilty of Bank Fraud                          scheme relating to approximately $1 million in SBA
On July 22, 2011, in the Western District of Missouri, the            home and business disaster loans. The property manager
former vice president of a Richland, Missouri bank, was               falsely represented that Hurricane Ike had damaged a
charged in a Criminal Information and pled guilty to one              rental property. The investigation determined that the
count of bank fraud. The investigation disclosed that he              damage to the rental property had been caused by an
knowingly and intentionally engaged in approximately                  intentional fire set prior to Hurricane Ike. This case was
15 fraudulent transactions, involving both SBA and non-               referred to the OIG by the SBA Processing and
SBA loans, in order to divert funds to his own personal               Disbursement Center, Fort Worth, Texas. This is a joint
accounts. His activity resulted in an approximate loss of             investigation with the Department of Homeland Security
$451,763 to the bank. This is a joint investigation with              (DHS) OIG.
the Federal Deposit Insurance Corporation OIG and the
FBI.                                                                  Homeowner Indicted for Theft of Government Funds
                                                                      On Friday, July 29, 2011, a homeowner was indicted in
Businessman Pleads Guilty to Mail Fraud                               U.S. District Court for the Eastern District of the
On July 26, 2011, in U.S. District Court, Western District            Louisiana on one count of theft of government funds.
of North Carolina, the president of a Warsaw, North                   The indictment, based on an investigation by the SBA
Carolina business was charged via a Bill of Information               OIG and the HUD OIG, charges that the subject provided
with four counts of mail fraud. On July 27, 2011, he pled             false statements to the affected agencies in an attempt to
guilty to all four counts. According to the information,              receive benefits to which he was not entitled. As a result
he aided and abetted others engaged in a scheme to                    of damage to his home by Hurricane Katrina, the SBA
defraud the SBA and financial institutions out of at least            approved a disaster home loan of $141,800. The
$92,500 by fraudulently submitting loan applications and              indictment alleges that he submitted false receipts to the
documentation for SBA-guaranteed loans and diverting                  SBA indicating that he spent $11,716 and $51,688 on
the proceeds of such loans for unauthorized purposes.                 repairs to his primary residence. As a result of his
This case was initiated by the OIG based on a referral                misrepresentations, he received a loan disbursement from
from the SBA lender. This is a joint investigation with               SBA totaling $31,800. This is a joint investigation with
the U.S. Postal Inspection Service.                                   the HUD OIG.




Update on the Activities of the SBA Office of Inspector General   2                                        July 2011
Government Contracting & Business                                            Peggy E. Gustafson, Inspector General
Development
                                                                           The OIG has established an e-mail address,
8(a) Business Owner Sentenced                                          oig@sba.gov that we encourage the public to use to
On July 13, 2011, in U.S. District Court, District of                   communicate with our office. We welcome your
Columbia, the owner of a design and remodeling                           comments concerning this update or other OIG
business was sentenced to 18 months in prison, 36                      publications. To obtain copies of these documents
months probation, $389,738 in restitution and 360 hours                                 please contact:
of community service. The sentencing was the result of
her guilty plea to one count of conspiracy and one count                                   SBA OIG
of false claims. The subject, the owner of an 8(a)                               409 Third Street SW, 7th Floor
certified design/remodeling business, conspired to submit                           Washington, DC 20416
falsified information to the U.S. General Services                                   E-mail: oig@sba.gov
Administration (GSA) in the course of obtaining an 8(a)                        Telephone number (202) 205-6586
contract with DHS, Immigration and Customs                                       FAX number (202) 205-7382
Enforcement (ICE). As a result of the conspiracy, ICE
suffered a loss of $389,738. This is a joint investigation            Many OIG reports can be found on the OIG’s website
with the DHS ICE, the GSA OIG, and the Department of                    http://www.sba.gov/office-of-inspector-general
Justice Antitrust Division.
                                                                      If you are aware of suspected waste, fraud, or abuse in
Agency Management                                                           any SBA program, please report it online at
                                                                       http://www.sba.gov/office-of-inspector-general/2662
Former SBA Program Manager Pleads Guilty
On July 20, 2011, a former SBA program manager pled                    Or call the OIG Hotline toll-free, at (800) 767-0385
guilty to one count of theft of government property and
one criminal forfeiture count. The former employee used
a government travel card to rent automobiles for personal
use and forged a supervisor’s signature on travel
authorizations and vouchers. As a result of the
employee’s false claims, the government paid fraudulent
travel costs totaling $7,919.68.




Update on the Activities of the SBA Office of Inspector General   3                                      July 2011
